Hotline Review                  June 28, 2011 


Hotline Complaint Regarding a Defense Contract 

  Audit Agency Employee Conducting Private 

For-Profit Tax Business Activity on Government 

    Time and Using Government Equipment 


           Report No. D-2011-6-008

Additional Information
The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight, Audit Policy and Oversight, prepared this report. If you have questions,
contact the signer of the report.

Suggestions for Future Reviews
To suggest ideas for or to request future reviews, contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
fax (703) 604-8982. Ideas and requests can also be mailed to:

                        Office of the Assistant Inspector General
                             for Audit Policy and Oversight
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 833)
                               Arlington, VA 22202-4704




Acronyms and Abbreviations
DCAA                         Defense Contract Audit Agency
GAO                          Government Accountability Office
OMB                          Office of Management and Budget
PII                          Personally Identifiable Information
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 	                     JUN 2 8 2011
                              ARLINGroN, VIRG INIA 22202-4704




MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: 	 Hotline Complaint Regarding A Defense Contract Audit Agency Employee
           Conducting Private For-Profit Tax Business Activity on Government Time
           and Using Government Equipment (RepOit No. 0-2011-6-008)

We are providing this report for your information and use. We reviewed a Defense
Hotline complaint and substantiated the allegation that a Defense Contract Audit Agency
employee was conducting private for-profit tax business activities on Government time
and using Government equipment. During our review, we also found unauthorized
personally identifiable information and unauthorized software on the employee's
Government-issued computer.

We considered management comments on a draft of this report when preparing the final
report. The comments conformed to the requirements of DOD Directive 7650.3 and left
no unresolved issues. Therefore, additional comments are not required .

We appreciate the courtesies extended to the staff. Please direct questions to

M,. C.wly" R. D.,;,,,    ~~~~/.8 87: :1~	
                                       lG;:C:';-_'
                                              I _ _ _ __                         _



                                Randolph R. Stone, SES
                                Deputy Inspector General
                                for Policy and Oversight
Report No. D-2011-6-008 (Project No. D2010-DIP0AI-0253.000)                       June 28, 2011

              Results in Brief: Hotline Complaint
              Regarding A Defense Contract Audit Agency
              Employee Conducting Private For-Profit Tax
              Business Activity on Government Time and
              Using Government Equipment
                                                           Institute of Certified Public Accountants
What We Did                                                to determine whether any Federal or
We reviewed the DOD Hotline complaint                      State laws, regulations, policies, or rules
alleging that a Defense Contract Audit Agency              were broken.
(DCAA) employee conducted private for-profit            •	 Determine how to mitigate the risk of
tax business activity on Government time and               unauthorized personally identifiable
using Government equipment.                                information from entering the
                                                           information systems network.
What We Found
                                                     Management Comments and
We substantiated the allegation. We found that
the employee was conducting activities               Our Response
associated with his private for-profit tax           In responding to an April 11, 2011 draft of this
business on Government time and using                report, the Director, DCAA agreed with all
Government equipment. During our review, we          findings and recommendations. Therefore, no
also found:                                          further comments are required.

   •	 unauthorized personally identifiable
      information on the subject’s Government
      computer; and                                               United States Department of Defense
   •	 unauthorized software on the subject’s                          Office of Inspector General
                                                                  Project No. D2010-DIP0AI-0253.000
      Government computer.                                             Report No. D-2011-6-008
                                                                             June 28, 2011


What We Recommend
We recommend that the Director, Defense
Contract Audit Agency:
   •	 Take appropriate action against the
       employee for ethics breaches, and
       determine how to mitigate the risk
       vulnerability of auditors that have
       private businesses from performing
       private business tasks on Government
       time while teleworking.
   •	 Contact the U.S. Department of the
       Treasury, the specific State Board of
       Public Accountancy, and the American

                                                 i
   Table of Contents

Results in Brief                                                         i


Introduction                                                             1


       Objective                                                         1

       Background                                                        1


Finding A. Conducting Private For-Profit Tax Business Activity on

           Government Time and Using Government Equipment                2


       Recommendations                                                   4


Finding B. Personally Identifiable Information on Government Computer    6


       Recommendations                                                   9


Finding C. Unauthorized Software on Government Computer                 12 


       Recommendations                                                  12 


Appendix

       Scope and Methodology                                            14 

       Prior Coverage                                                   14 


Management Comments

       Defense Contract Audit Agency                                    16 

Introduction
Objectives
We conducted this review to determine whether the complainant’s allegation concerning
an employee conducting private for-profit tax business activity on Government time and
using Government equipment could be substantiated. The complainant, who is
anonymous, specifically alleged that:

   •	 the employee was regularly heard talking to clients on the phone; and
   •	 the employee was using a Government fax machine to send and receive client
      documents.

See Appendix for details regarding our scope and methodology.

Background
Defense Contract Audit Agency (DCAA)
DCAA is a Defense agency under the authority, direction, and control of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, Department of Defense. In
accordance with DOD Directive 5105.36, DCAA is responsible for performing contract
audits for DOD, and providing accounting and financial advisory services regarding
contracts and subcontracts to all DOD Components responsible for procurement and
contract administration. These services are provided in connection with negotiation,
administration, and settlement of contracts and subcontracts. In addition, DCAA also
provides contract audit services to other Federal agencies, as appropriate.

Organizationally, DCAA includes a Headquarters, a Field Detachment, and five regions:
Central, Eastern, Mid-Atlantic, Northeastern, and Western. Each region has several field
audit offices. DCAA consists of approximately 4,800 people located at more than 300
field audit offices throughout the United States, Europe and the Pacific.

DCAA Internal Review Team
The DCAA Internal Review Team is responsible for investigating allegations of
wrongdoing made against agency employees. The Internal Review Team received the
complaint addressed in this report and forwarded it to us for action because of a possible
perceived independence concern.




                                             1

Finding A. Conducting Private For-Profit Tax
Business Activity on Government Time and
Using Government Equipment
We substantiated the allegation in the DOD Hotline complaint that a DCAA employee
was conducting private for-profit tax business activity on Government time and using
Government equipment by:

       •	 seizing the computer of the subject of the complaint and analyzing its
          contents;
       •	 interviewing and recording the subject of the complaint under oath; and
       •	 applying applicable laws, policies, and regulations to this situation.


DCAA Ethics Policy
Ethics policies within the Executive branch of the Federal Government directs the use of
Government time and property for authorized purposes only. DCAA follows and does
not further supplement DOD’s ethics policies. DOD ethics policies are contained in
DOD 5500.7-R, Joint Ethics Regulation (JER), August 1, 1993 [with changes 1-6, dated
March 23, 2006]. Chapter 2 of the Joint Ethics Regulation which supplements 5 C.F.R.
Part 2635, Standards of Ethical Conduct for Employees of the Executive Branch,
prohibits the use of Government time and property except for authorized Government
purposes. Although neither of these references provide, as an example, the specific strict
prohibition of performing tasks associated with a private for-profit business on
Government time and using Government property, the DOD’s Office of General Counsel
Encyclopedia of Ethical Failure, dated July 2010, lists numerous examples where Federal
employees have been punished for doing so.

DCAA Policy on Conducting Private For-Profit Business
Activities on Government Equipment
DCAA policy does not permit employees to conduct private for-profit business activities
on Government equipment. DCAA Regulations No. 4140.2, Use of Government Office
Equipment, dated September 13, 2002, and No. 8500.1, Information Assurance (IA)
Program, dated September 24, 2009, both strictly prohibit the use of Government
equipment to maintain or support a personal private for-profit business or activity.

Analysis of Content on the Subject’s Government-
Issued Computer
We substantiated the allegation through our analysis of the subject’s Government-issued
computer. We seized the subject’s Government-issued computer and our analysis




                                            2

revealed 149 documents associated with the subject’s private for-profit tax business.
These documents were in the form of:

       •	   107 e-mails (many having attachments),
       •	   27 Adobe PDF documents,
       •	   12 Microsoft Excel documents, and
       •	   3 Microsoft Word documents.

Interview of the Subject
We further substantiated the allegation by performing an in-person interview with the
subject of the complaint. Throughout the interview, the subject admitted to performing
tasks associated with his private for-profit tax business on Government time and using
Government equipment. During the interview, the subject confirmed the following:

       •	 He was a Certified Public Accountant and licensed to practice.
       •	 The name of the company, e-mail address and telephone number used in his
          private for-profit tax business.
       •	 A listing of 29 names of individuals or companies obtained from the subject’s
          Government computer, and whether or not they were clients of his private
          for-profit tax business.
       •	 Certifications of annual training in ethics, privacy, and information assurance
          (authorized Government computer use).
       •	 A selection of the 149 documents pertaining to the subject’s private for-profit
          tax business found on his Government computer.

Subject’s Sworn Statement Concerning His Private For-
Profit Tax Business Activities on Government Time and
Equipment
During our interview of the subject, he acknowledged using Government time and
equipment to perform tasks associated with his private for-profit tax business. The
subject also acknowledged his electronically-signed annual ethics and information
assurance training documents, and admitted to knowing that it was improper to use
Government time and equipment to perform tasks associated with a private for-profit
business.

DCAA Risk Vulnerability
A risk vulnerability exists within DCAA for auditors that have private for-profit
businesses and telework to perform tasks associated with their private businesses on
Government time. Although teleworking did not cause the situation being reported here,
since the employee violated Government ethics rules while working at their Government
duty site and also while teleworking, it increases the vulnerability that an unethical
employee will misuse Government time. DCAA employs approximately 4,000 auditors,
which is more than any other Federal entity. Because of DCAA’s mission, organizational
structure, and auditors with private for-profit businesses that telework, the risk


                                            3

vulnerability has escalated. In recent years, it has become more common for DCAA
auditors to telework. Combining the three factors [auditor, private for-profit business,
and telework] affords an environment that allows auditors to perform tasks associated
with their private for-profit businesses on Government time.

Our review covered a 6-year period, and during this period, we found that, in general, the
more the subject teleworked, the less documents and e-mails associated with the subject’s
private for-profit tax business were transferred on to his Government computer. At the
peak of the subject’s teleworking – 154 days in 2008 – the subject had only one
document associated with his private for-profit tax business on his Government
computer. Compare this to 2006, the year that had the most documents on his
government computer, 56, and only 61 days of teleworking. When the number of days
teleworking began to decrease to 133 days from 2008 to 2009, the documents being
transferred to the subject’s Government computer associated with his private for-profit
tax business began to increase, with 8 documents transferred to his government computer.

There is no reason to believe that in 2008 (when the subject had only one private for-
profit business document on his Government computer) the subject stopped performing
tasks associated with his private for-profit tax business while teleworking. To the
contrary, the reason there was a drop in private for-profit tax business activity on the
subject’s Government computer between 2006-2009 was due to the subject being at home
with immediate access to his personal computer, client account information, and home
telephone. The subject attested to the fact that during this period, he had no reason to
send his private for-profit tax business clients’ documents to his official Government
computer because he had immediate access to his personal computer, client account
information, and home telephone while teleworking.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Director, Defense Contract Audit Agency:

       1. Take appropriate action against the subject.

       Management Comments
       The Director, DCAA concurred. DCAA proposed suspending the employee
       without pay for a significant period and reducing his grade level. DCAA also
       revoked subject’s telework authority for a minimum of one year.

       Our Response
       The Director, DCAA comments were responsive and the actions meet the intent
       of the recommendation. Upon final adjudication of the suspension and reduction
       in grade, we request that DCAA provide us the documentation supporting these
       actions.




                                             4

2. Determine what action to take to mitigate risk vulnerability.

Management Comments
The Director, DCAA concurred. The Director sent out a memorandum to all
DCAA employees reiterating DCAA ethics rules and restating his position to hold
accountable individuals who break these rules. DCAA also will research the
feasibility of implementing an online reporting tool for all employees to report
their outside employment. Finally, DCAA will review their policies and
procedures for computer and network access to determine if internal controls need
to be enhanced to cover time spent out of the duty station.

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendation. By September 30, 2011, we request DCAA notify us of
the results of the research on the feasibility of an online reporting tool for
reporting outside employment.




                                    5

Finding B. Personally Identifiable
Information (PII) on Government Computer
During our review, we found that the subject’s Government-issued computer contained
personally identifiable information belonging to 30 individuals of his private for-profit
tax business, to include their social security numbers, names, home addresses, and
telephone numbers. The subject forwarded this information to his Government computer
via e-mail from his personal business account to have it for reference at work. This
action may have exposed his clients’ personal information to unauthorized recipients and
placed their identity in jeopardy.

Federal Government Policy on Personally Indentifiable
Information on Government Systems
Office of Management and Budget
PII and its protection became the focus of the Executive Office of the President in 2006.
The President issued Executive Order 13402, Strengthening Federal Efforts to Protect
Against Identity Theft, dated May 10, 2006. This order established the Identity Theft
Task Force and required the task force to formulate a strategic plan. The Office of
Management and Budget (OMB) also issued Memorandum 06-15, Safeguarding
Personally Identifiable Information, dated May 22, 2006, directing all departments and
agencies to review their policies, procedures, and controls on PII. As soon as the task
force issued its strategic plan to the President on April 23, 2007, OMB issued a
memorandum to all executive departments and agencies – OMB Memorandum 07-16,
Safeguarding Against and Responding to the Breach of Personally Identifiable
Information, dated May 22, 2007 – directing the identification, control, and reduction of
PII. It also directed the development of guidance to report breaches of PII.

Department of Defense
DOD implemented OMB M-06-15 by issuing Office of the Secretary of Defense
Administration and Management Memorandum, Safeguarding Personally Identifiable
Information, dated June 15, 2006, directing all Components to review their policies,
procedures, and controls on PII. One year later, DOD implemented OMB M-07-16 by
issuing Office of the Secretary of Defense Administration and Management
Memorandum, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, dated September 21, 2007. Emphasizing DOD’s serious intent
to safeguard PII within the department, the Office of the Secretary of Defense
Administration and Management reissued the exact same September 21, 2007
memorandum’s guidance twice on September 25, 2008 and June 5, 2009. The guidance
contained in these memoranda augment DOD’s privacy guidance contained in DOD
Directive 5400.11, DOD Privacy Program, dated May 8, 2007; and DOD 5400.11-R,
Department of Defense Privacy Program, dated May 14, 2007. The DOD guidance



                                            6

directs the review of PII holdings and provides incident reporting criteria if there is a
breach.

Defense Contract Audit Agency
DCAA implementation of OMB’s and DOD’s policy on PII is contained in DCAA
Instruction No. 5410.10, DCAA Privacy Program, dated February 15, 2011. This
guidance specifically states:

   •	 DCAA will collect, maintain, use, and disseminate personal information only
      when it is relevant and necessary to achieve a purpose required by statute or
      Executive Order.
   •	 The Chief Information Officer is responsible for ensuring that personal
      information in electronic form is only acquired and maintained when necessary.
   •	 The procedures to follow in the case of actual or suspected compromise of

      personally identifiable information.


The mission of DCAA does not encompass the collection of private citizens’ personal tax
information. What was not to be foreseen in the above policies was a situation where a
Federal employee would introduce private citizens’ PII onto a Federal Government
agency’s information system, as is the case in this report. All policies focused on
identifying, reducing, and where possible, eliminating PII on Government systems. The
policies also focused on how to report a breach of an agency’s authorized PII holdings.
The subject of this review, without any authorization, improperly introduced private
citizens’ PII into the DCAA network.

Internal Revenue Code Concerning Disclosure of Tax
Return Information
Internal Revenue Code, 26 U.S.C. §7216 (2010), Penalty for Disclosure or Use of Tax
Return Information, states:

       Any person who is engaged in the business of preparing, or providing
       services in connection with the preparation of, returns of the tax
       imposed by chapter 1, or any person who for compensation prepares
       any such return for any other person, and who knowingly or recklessly
       discloses any information furnished to him for, or in connection with,
       the preparation of any such return, or uses any such information for
       any purpose other than to prepare, or assist in preparing, any such
       return, shall be guilty of a misdemeanor, and upon conviction thereof,
       shall be fined not more than $1,000, or imprisoned not more than
       1 year, or both, together with the costs of prosecution. The exception
       where this shall not apply is if such disclosure is made pursuant to any
       other provision of this title or pursuant to an order of the court.

Internal Revenue Code, 26 U.S.C. §6713 (2010), Disclosure or Use of Information by
Preparers of Returns, states:


                                              7

       If any person who is engaged in the business of preparing, or
       providing services in connection with the preparation of, returns of tax
       imposed by chapter 1, or any person who for compensation prepares
       any such return for any other person, and who discloses any
       information furnished to him for, or in connection with, the
       preparation of any such return, or uses any such information for any
       purpose other than to prepare, or assist in preparing, any such return
       shall pay a penalty of $250 for each such disclosure or use, but the
       total amount imposed under this subsection on such a person for any
       calendar year shall not exceed $10,000. The exception where this
       shall not apply is if such disclosure is made pursuant to any other
       provision of this title or pursuant to an order of the court.

Although the subject of this report did not disclose taxpayer information to a specific
individual, the subject’s actions in forwarding his clients’ tax information to his official
Government computer via e-mail may be considered reckless disclosure. This review
obtained access to the confidential taxpayer information, and DCAA information
technology personnel could have come across this confidential information since all
e-mails are controlled by DCAA network administrators.

State Board of Public Accountancy Rules of
Professional Conduct
State Board of Accountancy Rules of Professional Conduct, Chapter 30-X-6-.04,
Responsibilities to Clients, states:

       A registrant shall not disclose any confidential information obtained in
       the course of a professional engagement except with the consent of the
       client.

Although the subject of this report did not disclose his clients’ information to a specific
individual, the fact that the subject transferred this confidential information to his
Government computer exposed the sensitive information to Government officials
conducting the official investigation, and possibly to DCAA information technology
personnel with access to e-mails on the DCAA network. The subject is licensed by a
specific State’s Board of Public Accountancy.

American Institute of Certified Public Accountants Code
of Professional Conduct
American Institute of Certified Public Accountants Code of Professional Conduct, ET
Section 301 – Confidential Client Information, Subsection .01 Rule 301 – Confidential
Client Information states:

       A member in public practice shall not disclose any confidential client
       information without the specific consent of the client.


                                              8

Although the subject of this report did not disclose his clients’ information to a specific
individual, the fact that the subject transferred this confidential information to his
Government computer exposed the sensitive information to Government officials
conducting the official investigation, and possibly to DCAA information technology
personnel who have access to e-mails on the DCAA network. The subject is a Certified
Public Accountant and a member of the American Institute of Certified Public
Accountants.

Subject’s Sworn Statement Concerning Personally
Identifiable Information on His Government-Issued
Computer
We questioned the subject about the PII we found on his Government-issued computer.
We specifically mentioned 31 names, showing the subject the actual documents
containing the social security numbers, names, home addresses, and telephone numbers
of private citizens who were clients of the subject’s private for-profit tax business. These
documents consisted of:

    •   Letters.
    •   IRS Forms W-2, W-4, 1040 (with Schedules), 1099, 4868, 8812, and 8863.
    •   State Income Tax forms.
    •   E-Trade Financial stockbroker statements.
    •   Weekly employee pay stubs.

When shown the actual documents, the subject acknowledged all of the documents but
one. In the document not acknowledged, the subject stated that the identification number
was not a social security number, but rather a Federal Employer Identification Number
for a business. When asked why these documents were on his Government-issued
computer, the subject stated that he forwarded them via e-mail to his Government
computer so he could have the documents available for reference at work while talking to
a client, a lawyer, or a State revenue office on the phone. The subject acknowledged that
his actions constituted misuse of Government time and equipment. Further, the subject
acknowledged the document showing that he had received annual training on the
authorized use of his Government-issued computer, and stated that he understood that PII
was not authorized to be on his Government-issued computer.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director, Defense Contract Audit Agency:

        1. Contact the U.S. Department of the Treasury to determine:

               a. whether any Federal laws or regulations have been violated; and




                                             9

       b.	 whether the affected taxpayers are required to be contacted
           concerning this breach.

Management Comments
The Director, DCAA concurred. DCAA will forward a copy of this report with
the subject’s identifying data to the U.S. Department of the Treasury Inspector
General’s office for action.

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendation. We request that DCAA include us as a courtesy copy
addressee on the transmittal letter.

2.	 Contact the specific State Board of Public Accountancy to determine
    whether any State laws or rules have been violated.

Management Comments
The Director, DCAA concurred. DCAA will forward a copy of this report with
the subject’s identifying data to the applicable State(s) Board of Public
Accountancy for action.

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendation. We request that DCAA include us as a courtesy copy
addressee on the transmittal letter.

3.	 Contact the American Institute of Certified Public Accountants to
    determine whether any rules have been violated.

Management Comments
The Director, DCAA concurred. DCAA will forward a copy of this report with
the subject’s identifying data to the American Institute of Certified Public
Accountants for action.

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendation. We request that DCAA include us as a courtesy copy
addressee on the transmittal letter.

4.	 Take appropriate action against the subject.

Management Comments
The Director, DCAA concurred. DCAA proposed suspending the employee
without pay for a significant period and reducing his grade level. DCAA also
revoked subject’s telework authority for a minimum of one year.



                                   10

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendation. Upon final adjudication of the suspension and reduction
in grade, we request that DCAA provide us the documentation supporting these
actions.

5.	 Have the DCAA Chief Information Officer:

       a.	 Determine how to mitigate risk of unauthorized personally
           identifiable information being transmitted onto, or from, DCAA’s
           information systems network(s).

       b.	 Determine how to purge all of the subject’s e-mails, e-mail
           attachments, and documents containing unauthorized personally
           identifiable information from DCAA systems and his
           Government-issued computer.

       c.	 Determine whether a breach notification to the United States
           Computer Emergency Readiness Team is required.

       d.	 Determine whether a breach notification to affected individuals is
           required.

Management Comments
The Director, DCAA concurred with Recommendations 5a through 5d. The
DCAA Chief Information Officer ordered research to ensure that DCAA is using
the most current, available methods to mitigate risk of unauthorized PII being
transmitted onto or from its information systems, such as logical access control,
encryption of data, and training. The Chief Information Officer further stated that
DCAA continually re-evaluates their system controls as additional tools become
available. The Chief Information Officer confirmed that all the unauthorized PII
has been removed. Finally, the Chief Information Officer applied applicable
policies to determine if a breach had occurred at DCAA, and if so, did it need to
be reported, and did the affected individuals need to be notified. The Chief
Information Officer determined that a breach did not occur, and therefore, United
States Computer Emergency Readiness Team and affected individuals did not
need to be notified by DCAA.

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendations.




                                    11

Finding C. Unauthorized Software on
Government Computer
During our review, we found unauthorized software on the subject’s Government
computer – specifically, five games. The subject was able to maintain these games on his
Government computer because the games were embedded in Microsoft Excel
spreadsheets. Having and playing games on a Government computer is unauthorized, a
waste of taxpayers’ dollars, and can expose the network to malware/viruses.

DCAA Policy on Unauthorized Software on Government
Computers
DCAA policy does not permit unauthorized software on its computers. DCAA
Regulation No. 8500.1, Information Assurance (IA) Program, dated September 24, 2009,
specifically states that no user will introduce or use unauthorized software on the DCAA
information system. DCAA Rules for Computer Users [Enclosure 4 to DCAAR No.
8500.1], which users are required to read and certify annually, states:

   •	 Do not introduce or use unauthorized software, firmware, or hardware onto the
      system or enclave.
   •	 Users must not play computer games.

Subject’s Sworn Statement Concerning Games on His
Government Computer
During our interview of the subject, he acknowledged the five games we found on his
computer. We asked the subject how these games became embedded in a Microsoft
Excel file, and whether this was done to circumvent information technology rules
forbidding unauthorized software on Government computers. The subject stated that he
did not know how the games were embedded into a Microsoft Excel file, and that he
received these games via e-mail from someone many years ago. The subject agreed that
the games were embedded most likely to get around computer security rules. When
shown a copy of his electronically-signed annual computer use training and certification,
he acknowledged receiving the annual training and admitted to knowing that games were
not authorized to be on his Government-issued computer.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Director, Defense Contract Audit Agency:

       1.	 take appropriate action against the subject; and




                                           12

Management Comments
The Director, DCAA concurred. DCAA proposed suspending the employee
without pay for a significant period and reducing his grade level. DCAA also
revoked subject’s telework authority for a minimum of one year.

Our Response
The Director, DCAA comments were responsive and the actions meet the intent
of the recommendation. Upon final adjudication of the suspension and reduction
in grade, we request that DCAA provide us the documentation supporting these
actions.

2.	 have the DCAA Chief Information Officer determine how to mitigate risk
    of employees having unauthorized software (e.g., games) on their
    Government computers.

Management Comments
The Director, DCAA concurred. The DCAA Chief Information Officer ordered a
review of the current internal controls in place and will continue to evaluate
changing technology in the future.

Our Response
The Director, DCAA comments are responsive and the actions meet the intent of
the recommendation.




                                   13

Appendix. Scope and Methodology
We reviewed the Defense Hotline complaint to determine whether we could substantiate
the allegation. Our review covered the period 2005 through 2010. As part of our review,
we:

       •	 seized the subject’s Government computer and analyzed its contents (which
          included searching the entire hard drive for Microsoft Word and Microsoft
          Excel files; Adobe PDF files; e-mails in the current Microsoft Outlook Inbox
          and Saved Mail.pst, Archive.pst; Microsoft Outlook calendars; and installed
          software);
       •	 interviewed the subject’s current and past supervisors;
       •	 interviewed a DCAA Regional Director;
       •	 interviewed and recorded the subject under oath;
       •	 reviewed applicable laws, policies, and regulations pertaining to the misuse of
          Government time and equipment, personally identifiable information, and
          unauthorized software on a Government computer;
       •	 reviewed the subject’s Official Personnel File maintained by the Defense
          Finance and Accounting Service;
       •	 reviewed the subject’s annual Confidential Financial Disclosure Reports; and
       •	 reviewed the subject’s certifications of annual training in ethics, privacy, and
          information assurance (authorized Government computer use).

We performed this review from October 2010 through March 2011. The review was
conducted in accordance with the Council of the Inspectors General on Integrity and
Efficiency Quality Standards for Inspection and Evaluation.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, no prior coverage has been conducted on a Federal employee
using Government time and equipment to perform tasks associated with a private for-
profit business or unauthorized software on a Government computer. However, the
Government Accountability Office (GAO) has issued 4 reports during the last 5 years
discussing personally identifiable information. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-09-759T, “Identity Theft: Governments Have Acted to Protect
Personally Identifiable Information, But Vulnerabilities Remain,” June 17, 2009




                                           14

GAO Report No. GAO-08-795T, “Privacy: Congress Should Consider Alternatives for
Strengthening Protection of Personally Identifiable Information,” June 18, 2008

GAO Report No. GAO-08-536, “Privacy: Alternatives Exist for Enhancing Protection of
Personally Identifiable Information,” May 19, 2008

GAO Report No. GAO-08-343, “Information Security: Protecting Personally Identifiable
Information,” January 25, 2008




                                         15

Defense Contract Audit Agency Management
Comments




                    16 

17 

18 

19 

